Defendant-Appellant pro se
2559 NW Monterey Pines Drive
Bend, OR 97703
541-728-7905
marystrong@bendbroadband.com
CERTIFICATE OF FILING
I certify that on May 15, 2020 I filed this Petition For Writ of
Certiorari with the United States Supreme Court Administrator by
United States Postal Service with tracking at the following address:
Clerk, Supreme Court of the United States, One First Street, NE,
Washington, DC 20543
CERTIFICATE OF SERVICE
I certify that on May 15, 2020 I served a true copy of this
Petition For Writ of Certiorari to the following parties by United
States Postal Service with tracking as set forth below:
ATTORNEY FOR RESPONDENT:
Jeremy Clifford
McCarthy & Holthus, LLP
920 SW 3rd Ave., 1st Floor
Portland, OR 97204

DATE: May15, 2020

/s/ Mary Strong
Mary Strong, Defendant-Appellant pro se

30

